                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: 112040017                                                                     Page 1 of 1



        We initiated an investigation to determine if a grantee 1 inappropriately charged NSF grants and
        contracts for health care costs, IT support costs, and salary costs. Based on interviews conducted
        with current and former grantee employees, and reviews of documents, we determined the
        allegations were unsubstantiated.

                  Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
